HHS/OIG, Audit -"Review of Medicare Payments for Beneficiaries With Institutional Status at Coventry Healthcare of Kansas, Inc. for the Period January 1, 2000 Through May 31, 2002,"(A-07-02-00148)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries With Institutional Status
at Coventry Healthcare of Kansas, Inc. for the Period January 1, 2000 Through
May 31, 2002," (A-07-02-00148)
April 11, 2003
Complete
Text of Report is available in PDF format (897 Kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if capitalization payments to
Coventry were appropriate for beneficiaries reported as institutionalized during
the audit period.  Medicare generally pays a higher monthly capitation
rate for enrolled beneficiaries who are residents of a Medicare or Medicaid
certified institution (or the distinct part of the institution).  We determined
that Coventry received Medicare overpayments totaling $132,000 for 61 beneficiaries
incorrectly classified as institutionalized during the audit period.  Of
these, a total of 37 beneficiaries were incorrectly classified because they
were residing in assisted living facilities (19); or were residing in non-approved
facilities (7); or had not met the 30 consecutive day minimum time requirement
to qualify as institutionalized (11).  In addition, Coventry incorrectly
classified 24 beneficiaries as institutional who were residing in the non-certified
portion of the institution.  We recommend that Coventry refund overpayments
of approximately $132,000, ensure adherence to policies and procedures for
verifying institutional care, and develop more effective internal control procedures
for verification of each beneficiary's institutional status.